No. ______
In the Supreme Court of the United
__________________

States

KAMAL ANWIYA YOUKHANNA; WAFA CATCHO;
MAREY JABBO; DEBI RRASI; JEFFREY NORGROVE;
MEGAN MCHUGH,
Petitioners,
v.
CITY OF STERLING HEIGHTS; MICHAEL C. TAYLOR,
individually and in his official capacity as Mayor,
City of Sterling Heights, Michigan,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
DAVID YERUSHALMI
American Freedom Law Center
2020 Pennsylvania Avenue NW
Suite 189
Washington, D.C. 20006
(646) 262-0500

ROBERT JOSEPH MUISE
Counsel of Record
American Freedom Law Center
P.O. Box 131098
Ann Arbor, Michigan 48113
(734) 635-3756
rmuise@americanfreedomlawcenter.org

Counsel for Petitioners

December 9, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Does a city council rule prohibiting private
citizens from making disparaging comments about
religion when speaking during the public comment
period of a council meeting convened for the purpose of
deciding whether to permit the construction of a
mosque via a consent decree violate the First
Amendment?
2. Can a city council enter into a consent decree in
federal court that fails to comply with local and state
zoning laws when the consent decree was not necessary
to rectify the violation of federal law?

ii
PARTIES TO THE PROCEEDING
Petitioners are Kamal Anwiya Youkhanna, Wafa
Catcho, Marey Jabbo, Debi Rrasi, Jeffrey Norgrove,
and Megan McHugh (collectively referred to as
“Petitioners”).
Respondents are the City of Sterling Heights,
Michigan and Michael C. Taylor, individually and in
his official capacity as Mayor, City of Sterling Heights,
Michigan (“City”) (collectively referred to as
“Respondents”).
STATEMENT OF RELATED PROCEEDINGS
Am. Islamic Cmty. Ctr., Inc. v. City of Sterling Heights,
No. 1:16-cv-12920 (E.D. Mich. filed Aug. 10, 2016)

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISION INVOLVED . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 1
I. STATEMENT OF FACTS . . . . . . . . . . . . . . . . . . 1
A. AICC Zoning Application . . . . . . . . . . . . . . . . 1
B. Local and State Zoning Regulations . . . . . . . . 3
C. Actions of the Planning Commission . . . . . . . 6
D. Litigation Against the City . . . . . . . . . . . . . . . 9
E. City Council Meeting of February 21, 2017 . . 9
F. Consent Judgment. . . . . . . . . . . . . . . . . . . . . 11
G. Petitioners’ “Good Faith Concerns” about the
Mosque . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
II. PROCEDURAL BACKGROUND. . . . . . . . . . . . 15
REASONS FOR GRANTING THE PETITION . . . 17

iv
I. THE CITY COUNCIL RULE PROHIBITING
PETITIONERS’ SPEECH VIOLATED THE
FIRST AMENDMENT . . . . . . . . . . . . . . . . . . . . 20
II. THE CONSENT JUDGMENT IS INVALID
BECAUSE IT DISREGARDS ZONING LAWS
AND WAS NOT NECESSARY TO RECTIFY
THE VIOLATION OF FEDERAL LAW. . . . . . . 24
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(August 14, 2019) . . . . . . . . . . . . . App. 1
Appendix B Opinion
and
Order Granting
Defendants’ Motion for Summary
Judgment and Denying Plaintiffs’
Motion for Summary Judgment and
Judgment in the United States
District Court for the Eastern District
of Michigan, Southern Division
(August 1, 2018) . . . . . . . . . . . . . App. 29
Appendix C Order in the United States Court of
Appeals for the Sixth Circuit Denying
Rehearing and Rehearing En Banc
(September 10, 2019) . . . . . . . . . App. 53

v
TABLE OF AUTHORITIES
CASES
Am. Freedom Def. Initiative v. King Cnty.,
904 F.3d 1126 (9th Cir. 2018). . . . . . . . . . . . . . . 23
Am. Freedom Def. Initiative v. King Cnty.,
136 S. Ct. 1022 (2016). . . . . . . . . . . . . . . . . . 17, 18
Bible Believers v. Wayne Cnty.,
805 F.3d 228 (6th Cir. 2015) (en banc). . . . . . . . 21
Cleveland Cnty. Ass’n for Gov’t by the People v.
Cleveland Cnty. Bd. of Comm’rs,
142 F.3d 468 (D.C. Cir. 1998) . . . . . . . . . . . . . . . 29
Glendale Assocs., Ltd. v. N.L.R.B.,
347 F.3d 1145 (9th Cir. 2003). . . . . . . . . . . . . . . 23
Jobe v. City of Catlettsburg,
409 F. 3d (6th Cir. 2005). . . . . . . . . . . . . . . . 15, 19
Kasper v. Bd. of Election Comm’rs,
814 F.2d 332 (7th Cir. 1987). . . . . . . . . . . . . . . . 29
Keith v. Volpe,
118 F.3d 1386 (9th Cir. 1997). . . . . . . . . . . . . . . 29
League of Residential Neighborhood Advocates v.
City of L.A.,
498 F.3d 1052 (9th Cir. 2007). . . . . . . . . 19, 26, 28
Madison Joint Sch. Dist. v. Wis. Emp’t Relations
Comm’n,
429 U.S. 167 (1976). . . . . . . . . . . . . . . . . . . . 18, 24

vi
Matal v. Tam,
137 S. Ct. 1744 (2017). . . . . . . . . . . . . . . 18, 23, 24
Monell v. N.Y. Dep’t of Soc. Servs.,
436 U.S. 658 (1978). . . . . . . . . . . . . . . . . . . . . . . 10
NAACP v. Button,
371 U.S. 415 (1963). . . . . . . . . . . . . . . . . . . . . . . 18
NAACP v. Claiborne Hardware Co.,
458 U.S. 886 (1982). . . . . . . . . . . . . . . . . . . . . . . 18
Perkins v. City of Chi. Heights,
47 F.3d 212 (7th Cir. 1995). . . . . . . . . . . . . . . . . 28
Police Dep’t of the City of Chi. v. Mosley,
408 U.S. 92 (1972). . . . . . . . . . . . . . . . . . . . . . . . 24
St. Charles Tower, Inc. v. Kurtz,
643 F.3d 264 (8th Cir. 2011). . . . . . . . . . . . . . . . 28
Wandering Dago, Inc. v. Destito,
879 F.3d 20 (2d Cir. 2018) . . . . . . . . . . . . . . . . . 24
Whitman v. Galien Twp.,
288 Mich. App. 672 (Mich. Ct. App. 2010) . . 25, 26
CONSTITUTION AND STATUTES
U.S. Const. amend. I . . . . . . . . . . . . . 1, 15, 18, 20, 24
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Mich. Comp. Laws § 125.3502 . . . . . . . . . . . . . 5, 6, 26
RULE
Sup. Ct. R. 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

1
PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW
The opinion of the court of appeals appears at App.
1 and is reported at 934 F.3d 508. The opinion of the
district court appears at App. 29 and is reported at 332
F. Supp. 3d 1058.
JURISDICTION
The opinion of the court of appeals affirming the
judgment of the district court was entered on August
14, 2019. App. 1. A petition for rehearing en banc was
denied on September 10, 2019. App. 53. The
jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL PROVISION INVOLVED
The Free Speech Clause of the First Amendment
provides, “Congress shall make no law . . . abridging
the freedom of speech.” U.S. Const. amend. I.
STATEMENT OF THE CASE
I. STATEMENT OF FACTS.
A. AICC Zoning Application.
On July 8, 2015, the American Islamic Community
Center (“AICC”) submitted an Application for Planning
Commission Approval (hereinafter “AICC application”)
for a Special Approval Land Use in which it requested
permission to build a “Religious Community Center” in
a largely Chaldean Christian neighborhood located on
Fifteen Mile Road in the City. (R.67-3, Pg. ID 1637-38).
The location for this structure is zoned R-60, which is

2
residential. (Id.). The proposed religious community
center is approximately 28,000 square feet (R.67-4, Pg.
ID 1649), with a dome and spires that exceed 60 feet in
height. (R.67-5, Pg. ID 1657). It will be located on 4.3
acres. (R.67-4, Pg. ID 1649). While the building is
28,000 square feet, only 3,024 square feet is designated
as “worship space.” Consequently, only approximately
one-eighth of the building is designated for religious
worship. (Id., Pg. ID 1651; R.67-6, Pg. ID 1660-76).
The City’s zoning regulations permit the
construction of “[c]hurches, synagogues, mosques and
places of group worship” in areas zoned residential.
(ZO at § 3.02, R.67-7, Pg. ID 1679). “Such facilities
may include related community centers.”1 (Id. at
§ 3.02A4 [emphasis added]). However, a community
center, as a principal use, is not permitted in a
residential area; it is permitted in the planned office
district.2 (R.67-4, Pg. ID 1646).
AICC is currently worshipping at a Madison
Heights, Michigan location that advertises a broad
range of activities beyond those presented during its
application process. (R.67-8, Pg. ID 1702 [citing daily
prayer, Friday prayer service and Ramadan services]).
In fact, AICC was looking for new space for the purpose
of offering “educational activities, youth activities, and

1

AICC has “approximately 100 members” (R.9-2, Pg ID 87), which
begs the question: why build a 28,000 square-foot structure?

2

While factually the building is more like a “community center”
with a small worship space, for purposes of this petition, it will be
referred to as a “mosque.”

3
special events” that the existing space would not
accommodate.3 (R.9-4, Pg. ID 256).
B. Local and State Zoning Regulations.
For the City to approve a special approval land use,
the proposed construction must comply with all of the
“specific” and “general” standards under the Zoning
Ordinance, (R.67-4, Pg. ID 1647), as well as the
Michigan Zoning Enabling Act (“MZEA”).
Section 3.02 of the Zoning Ordinance addresses
special approval land uses, such as “[c]hurches,
synagogues, mosques and places of group worship,”
which “may be permitted by the Planning Commission
subject to the general standards of section 25.02 and
the specific standards imposed for each use.” (ZO at
§ 3.02 [emphasis added], R.67-7, Pg. ID 1679). The
maximum height allowed for a building located within
a residentially-zoned district is 30 feet. (Id. at § 3.04,
Pg. ID 1688-90). However, a place of worship may
exceed this height so long as it meets other
requirements set forth in the Zoning Ordinance. (R.674, Pg. ID 1648 [noting that this is a permissive
requirement]; ZO at § 3.02A1, R.67-7, Pg. ID 1679).
The “authority” for approving a special land use is
set forth in § 25.01 of the Zoning Ordinance, which
states, in relevant part, that the “Planning Commission
shall have the power to approve or disapprove all
special approval land uses, except that the City Council

3

Per AICC, it “offers a variety of services to the local Muslim
community.” (R.27, Pg. ID 1076).

4
shall be the approving authority4 with respect to special
approval land uses which have been approved by the
City Council . . . 4. As a development pursuant to a
consent judgment approved by the City Council.” (ZO
at § 25.01, R.67-7, Pg. ID 1691). When considering “all
applications for special approval land use except those
reviewed and approved by the City Council as provided
in the preceding sentence, the Planning Commission
shall review each case individually as to its
appropriateness and consider” the applicable
standards. (Id. at § 25.01B, Pg. ID 1691). And “[w]hen
the City Council is the reviewing authority with respect
to a special approval land use, it . . . shall consider the
same standards as the Planning Commission.” (Id. at
§ 25.01C [emphasis added], Pg. ID 1692). Thus, when
the City Council is approving a special approval land
use development pursuant to a consent judgment, as in
this case, it must ensure compliance with the same
regulations considered by the Planning Commission
(unless federal law requires otherwise).5
The “general standards” applicable to all special
approval land uses are set forth in § 25.02. And each
4

In order to “approve” an application for special land use, the
requested construction must comply with the zoning regulations.
Thus, in order to “approve” the application, there must be a
“review” to ensure such compliance. “Approval” necessarily
presupposes a “review.”

5

The City’s position revealed during discovery and accepted by the
district court is that when a special approval land use is approved
as part of a consent decree, the City Council is not required to
consider nor comply with any of the standards for such use. (See
R.67-5, Pg. ID 1645; see also id., Pg. ID 1643). The City is forced
to take this position because the Consent Judgment at issue here
does not comply with the required standards. See infra.

5
of these standards is mandatory. (Id. at § 25.02
[stating that the “proposed special approval land use
shall” comply with the stated standard], R.67-7, Pg. ID
1692-93). Thus, while these standards are considered
“general,” they are mandatory (“shall”) and they
require facts to demonstrate compliance. (R.67-4, Pg.
ID 1643; ZO § 25.03B1, R.67-7, Pg. ID 1694; Mich.
Comp. Laws § 125.3502).
Section 25.03 sets forth the required “Procedures”
that apply to special approval land uses. Subsection A,
“Public Hearing,” states, in relevant part, that “[i]f the
City Council is the reviewing authority for a special
approval land use under consideration that is
proposed. . . [w]ithin or as part of a development
proposed to be developed pursuant to a consent
judgment (or amendment) approved by the City
Council, the City Council shall investigate the
circumstances of the case prior to approving or denying
the request.” (ZO at § 25.03A [emphasis added], R.677, Pg. ID 1693-94).
Under subsection B, the ordinance sets forth the
required procedures for approving a special approval
land use. Subsection B states, in relevant part, that “in
instances where [the City Council] is the reviewing
authority . . . . [if] the particular special approval land
use(s) is in compliance with the standards [including
§ 25.02 and state statutes] it shall be approved. The
decision shall be incorporated in a statement of findings
and conclusions which specifies the basis for the
decision and any conditions imposed.” (Id. at § 25.03B1
[emphasis added], R.67-7, Pg. ID 1694).

6
Regardless of the Zoning Ordinance requirements,
the MZEA separately mandates “a statement of
findings and conclusions . . . which specifies the basis
for the decision” for all special land use approvals.
Mich. Comp. Laws § 125.3502.
Consequently, under both the Zoning Ordinance
and the MZEA, when a special land use is approved,
regardless of the entity that does the approving, a
statement of findings and conclusions specifying the
basis for the approval is required. This ensures the
public that the entity responsible for approving the
land use has in fact complied with the requisite
standards. The City Council did not do this here when
it reversed the unanimous decision of the Planning
Commission, which specifically found that the mosque
construction does not comply with the zoning
standards. See infra.
C. Actions of the Planning Commission.
The Planning Commission held a hearing on August
13, 2015, to review AICC’s application. No final
decision was rendered.
Rather, the Planning
Commission voted to continue the matter to September
10, 2015, so that it could consider additional
information it had requested from AICC and so that a
full commission would be present to hear and decide
the matter. (R.67-9, Pg. ID 1753-54). During the
August 13, 2015, hearing, numerous citizens spoke in
opposition to the AICC construction, citing traffic and
safety as the primary concerns. (See id., Pg. ID 171646).

7
Following the September 10, 2015 Planning
Commission meeting, the Planning Commission voted
unanimously to disapprove AICC’s zoning application.
Based on the factual record, the Planning Commission
concluded that the proposed construction did not
comply with the Zoning Ordinance. As stated in the
Planning Commission Staff Report of September 10,
2015, AICC “was afforded an opportunity to consider
and propose amendments to the architectural plans to
address” the concerns raised by the Planning
Commission. However, AICC failed to do so. (R.67-5,
Pg. ID 1657-58 [noting no changes to ensure
compatibility with the land uses in the vicinity in terms
of the height, scale, and potential impact on the
neighboring areas]).
The Planning Commission
ultimately concluded, based on the facts, that the
proposed construction does not comply with the Zoning
Ordinance, and it made the following specific findings:
• The location and height of the proposed
building interferes with and discourages the
appropriate development and use of adjacent
land and buildings, with the height exceeding
that of other structures in the immediate
areas by more than 30’ at some points of the
proposed building . . . ;
• The square footage of the proposed building
in comparison to the size of the parcel is
excessive and not compatible with the
established long-term development patterns
in this R-60 zoning district . . . ;

8
• Given the approximately 20,5006 square foot
size of the proposed building and the
allocation of floor space to ancillary uses,
there is a likely shortage of off-street parking
when the principal and ancillary uses of the
building are combined, especially on busy
prayer hall days. Section 23.02 B.1 of the
Ordinance requires additional parking spaces
for ancillary uses, which are not addressed in
the architectural plans . . . ; and
• The scale and height of the proposed building
on the site are not harmonious with the
character of existing buildings in the vicinity
of this R-60 zoning district . . . .
(R.67-5, Pg. ID 1657; R.67-10, Pg. ID 1758-59; R.67-11,
Pg. ID 1769-70 [reviewing the hearing transcript where
he, the former City planner, explains why the mosque
does not, as a matter of fact, comply with the zoning
ordinance and testifying that his explanation was
true]).
During his testimony, Respondent Taylor confirmed
that he “support[ed] the planning commission’s
decision in this case,” that “the planning commission
arrived at the right decision” and that this decision was
“based on legitimate planning and zoning issues.”
(R.67-12, Pg. ID 1781-82). Per the testimony of
Respondent Taylor:

6

When you include the basement, the square footage of the
building is approximately 28,000 square feet. (R.67-4, Pg. ID
1649).

9
Q. So as you sit here today, was it your
understanding the planning commission
properly applied the zoning ordinance to deny
the special approval land use application of the
AICC?
A. That is my belief, yes.
(R.67-12, Pg. ID 1782).
Christopher McLeod, the City’s designated Rule
30(b)(6) witness, testified that “the planning
commission clearly outlined their rationale for denying
the application. And their specific requirements in
terms of their view, the specific requirements—general
requirements of special land use were not met. So,
from that standpoint, I agree with the planning
commission’s determination.” (R.67-4, Pg. ID 1650).
D. Litigation Against the City.
As a result of the Planning Commission’s denial of
the AICC application, AICC sued the City in federal
court. (R.9-2, Pg ID 84-138). The City denied all
wrongdoing. (Id., Pg ID 140-93).
E. City Council Meeting of February 21, 2017.
On February 21, 2017, a City Council meeting was
held during which the City Council considered whether
to enter into a consent decree that would resolve the
pending litigation and approve AICC’s request to build
the mosque. Counsel for the City prepared only one
Agenda Statement for the meeting, and the only
“Suggested Action” provided was to approve the
Consent Judgment. (R.67-13, Pg. ID 1788-89; R.67-4,
Pg. ID 1652). Noticeably, no AICC supporters were

10
present at this meeting—confirming for Petitioners
that the decision had already been made. (R.67-14, Pg.
ID 1793-94).
During this meeting, Respondent Taylor, the Mayor
and Chairman of the City Council,7 imposed a
restriction on speakers who wanted to address the
Consent Judgment agenda item. More specifically, the
Mayor warned the speakers prior to the public
comment period on the mosque issue that he would not
permit “any comments about anybody’s religion. . . .
And any comments regarding other religions or
disagreements with religions will be called out of
order.” (R.67-12, Pg. ID 1776). Respondent Taylor
testified that he was enforcing a City Council rule that
prohibits public comments that “make attacks on
people or institutions.”8 (Id., Pg. ID 1776; id., Pg. ID
1777 [“If somebody came up at any council meeting and
started to talk about somebody else’s religious beliefs
or attacking them for their religious beliefs, they would
be called out of order. I was just specifying it at this
meeting.”]).
The application and enforcement of this speech
restriction was demonstrated throughout the meeting,
particularly when Respondent Taylor interrupted a
7

As the chairperson, Respondent Taylor enforces the City
Council’s rules, and he is “responsible for giving people the floor,
calling people out of order, ruling on points of order . . . [and he]
generally [is] responsible for running the meetings.” (R.67-12, Pg.
ID 1775).

8

Consequently, a City Council rule was the moving force behind
the violation of Petitioners’ constitutional rights. See Monell v.
N.Y. Dep’t of Soc. Servs., 436 U.S. 658, 694-95 (1978).

11
woman speaker, calling her out of order and stating,
“You’re out of order. You cannot say that you don’t
want them to build the mosque because you want to be
safe. Do you understand? I’ve made that ruling
already.” (R.67-12, Pg. ID 1777-78; see id., Pg. ID 1778
[“I believed that she was making an attack on the
AICC.”]; id., [“It related to what was going on back
home, and my understanding of what’s going on back
home—and back home I understood to be Iraq—is that
Christians are being brutally persecuted by Islamic
terrorists, and so I found that she was equating the
AICC and the mosque with ISIS, and I viewed that as
an attack on the AICC. That was not in order with our
council rules.”]). This prior restraint on the speakers
at the City Council meeting restricted Petitioners’
speech. See, e.g., App. 20-22 (citing Petitioners’
testimony as to the content of their intended
comments, but incorrectly concluding that the
comments were not “relevant” and were thus restricted
in this public forum by the “relevance rule”).
And while “religion” was off-limits for the citizen
speakers, Respondent Taylor allowed council member
Doug Skrzyniarz to lecture the citizens about “religious
wars,” “religious liberty,” and the so-called “wall of
separation between church and state,” among others,
prompting (not surprisingly) an adverse response from
some in attendance. (R.67-12, Pg. ID 1779-80, 1783;
R.67-14, Pg. ID 1795).
F. Consent Judgment.
To resolve the AICC litigation “without any
admission of liability,” AICC and the City entered into
the Consent Judgment. (R.67-20, Pg. ID 1831). On

12
March 10, 2017, the district court approved the
Consent Judgment without making any findings that
there has been or will be an actual violation of federal
law. (See id.).
The Consent Judgment approved AICC’s request to
build a mosque:
AICC is hereby granted special land use
approval to develop a 20,500 square foot mosque
on the Property. The dome at the center of the
mosque and the spires on each end of the
building shall be no higher than fifty-three and
one-half (53 ½) feet from the base of the
building.
The dome will have a totally
decorative crescent on top that will be no taller
than five (5) feet, and the spires will include a
pole and crescent that is eight (8) feet higher
than the top of the spire, as shown on the
approved site plan. Details of the dome and
crest are attached as Exhibit B. . . .
(R.67-20, Pg. ID 1832 [emphasis added]).
The Consent Judgment does not include the
required “statement of findings and conclusions,” which
would set forth facts demonstrating that the
construction complies with all of the zoning standards
as mandated by the Zoning Ordinance and the MZEA.
(See id.).
Per the Consent Judgment, the number of parking
spaces “was determined based upon only the worship
area in the building containing 3,205 square feet”—no
ancillary uses were considered. (R.67-20, Pg. ID 1835).
The Consent Judgment only requires AICC to make

13
“reasonable efforts” to provide off-site parking and to
“monitor parking so that members and guests do not
park on adjacent residential streets.” (Id.). “[T]he City
may institute residential permit parking on the
neighboring residential streets to ensure compliance
with this provision,” but only so long as the City
“appl[ies] a residential parking permit system in an
area in the City found to be similarly-situated to the
[mosque property].” (Id., Pg. ID 1835-36). The Consent
Judgment does not prohibit noisy outdoor activities,
such as sports. (See id.). The Consent Judgment does
not set forth facts explaining how this enormous
structure satisfies the mandatory standards set forth
in § 25.02. (See id.).
By its own terms, the Consent Judgment trumps
local zoning regulations. (R.67-20, Pg. ID 1837
[“Except as modified by this Consent Judgment, AICC
shall comply with all City codes . . . .”], Pg. ID 1838 [“To
the extent that this Consent Judgment conflicts with
any City Ordinance . . . , the terms of this Consent
Judgment shall control.”],).
G. Petitioners’ “Good Faith Concerns” about
the Mosque.
As Respondent Taylor testified:
A. I heard from a number of Chaldean people
that they were upset with the mosque being
built on 15 Mile Road, yes.
Q. And what was your understanding of their
objections to the mosque being built on 15 Mile
Road?

14
A. Well, I can’t speak for every Chaldean person,
but the general theme I heard was that when
they lived in Iraq, and they would have a
Christian community in Iraq, that Muslims
would build a mosque or try to get a foothold
near their community as a way to antagonize
them and as a way to let them know that
Christians could not escape Muslims, and that
Muslims would follow them wherever they went.
And so when the Chaldean community that lives
in Sterling Heights—I think lives throughout
the city but it’s concentrated in the 15 mile and
Ryan area, and this mosque was proposed in
fairly close proximity to 15 Mile and Ryan, and
so the Chaldeans that I talked to, a number of
them expressed to me that this seemed to be
similar to what would happen to them back at
home; and as we talked about earlier, a number
of Chaldeans—probably most of them were
trying to escape religious persecution in Iraq
and saw this as antagonistic, the AICC deciding
to put their mosque on 15 Mile Road, and so
that’s generally what I got from talking with
Chaldeans in Sterling Heights.
Q. Are you dismissive of those concerns or do
you think they’re real concerns that they have
expressed to you?
A. I’m not dismissive of those concerns and I
believe they’re good faith concerns from the
Chaldean people who expressed them to me.
(R.67-12, Pg. ID 1774 [emphasis added]). It was
similar “good faith concerns” that Petitioners wanted to
express at the February 21, 2017, City Council

15
meeting, but were prevented from doing so by
Respondent Taylor’s enforcement of the challenged
speech restriction, which the Sixth Circuit incorrectly
upheld as a “relevance” restriction. See, e.g., App. 1922.
II. PROCEDURAL BACKGROUND.
Petitioners filed this action on March 13, 2017.
Following the close of discovery, the parties filed crossmotions for summary judgment. See App. 29.
On August 1, 2018, the district court entered an
opinion and order granting Respondents’ motion for
summary judgment and denying Petitioners’ motion for
summary judgment. App. 29-52.
Citing Sixth Circuit precedent, the district court
described the applicable standard for Petitioners’ First
Amendment claim as follows: during a City Council
meeting, the City “may apply restrictions to the time,
place, and manner of speech so long as those
restrictions ‘are content-neutral, are narrowly tailored
to serve a significant government interest, and leave
open ample alternative channels of communications.’”
App. 45 (quoting Jobe v. City of Catlettsburg, 409 F. 3d
261, 266 (6th Cir. 2005)).
Claiming to apply this standard, the district court
concluded as follows:
In this case, the purpose of the February 21,
2017 meeting was to discuss the approval of the
Consent Judgment, thus comments about Islam
were irrelevant to the discussion before the
Council.
Moreover, [Respondent] Taylor

16
indicated at the outset that commentary
regarding anyone’s religion was not relevant to
whether the Consent Judgment should be
approved and the reason for the speaking
limitation and removal provision was to
maintain order and to ensure that all audience
members wishing to speak had the opportunity
to do so. As such, [Petitioners] have failed to
come forward with any evidence that the City’s
rules were not content-neutral or narrowly
tailored.
Additionally, [Petitioners] had ample alternative
channels of communication.
The City
established a location just outside City Hall,
where individuals, including the [Petitioners],
could gather and express their opinions and
concerns about individuals who practice Islam,
terrorism and other views not germane to
whether the Consent Judgment should be
approved. Lastly, the contact information for
each Councilmember is available on the City’s
website and [Petitioners] were able to contact
the members to express their views.
App. 46-47 (emphasis added).
In its ruling on the validity of the Consent
Judgment, the district court accepted Respondents’
argument and held that the Consent Judgment did not
violate any zoning regulations because the City Council
was authorized to approve the construction of the
mosque without having to comply or demonstrate
compliance in any way with the Zoning Ordinance
because the City Council was acting as an “approving

17
authority” and not a “reviewing authority.” Per the
district court:
[T]he Zoning Code unambiguously requires the
City Council to consider the discretionary
standards9 with respect to a special land use
application when it is the “reviewing authority.”
Conversely, when City Council is designated the
“approving authority” only, the Zoning Code is
silent with respect to the same requirement to
consider the discretionary standards under the
Code. Id. at § 25.01(A)(4) (stating that the City
Council shall be the approving authority with
respect to special approval land use pursuant to
a consent judgment).
App. 39.
Petitioners filed a timely notice of appeal. On
August 14, 2019, the Sixth Circuit affirmed the district
court’s ruling. App. 1-50. On September 10, 2019, the
Sixth Circuit denied Petitioners’ petition for rehearing
en banc. App. 53. This petition follows.
REASONS FOR GRANTING THE PETITION
This case involves a politically charged subject: a
challenge to the City Council’s approval via a consent
decree of the construction of a large mosque in a largely
Chaldean Christian neighborhood in the City. But the
controversial nature of this case should not be the basis
for this Court to deny review. Rather, it is all the more
reason to grant review. See Am. Freedom Def.
9

As noted previously, these standards are not “discretionary,” they
are mandatory.

18
Initiative v. King Cnty., 136 S. Ct. 1022, 1025 (2016)
(Thomas, J., joined by Alito, J., dissenting) (“To be
sure, this case involves speech that some may consider
offensive, on a politically charged subject. That is all
the more reason to grant review.”). Indeed, it is often
within the context of politically charged and
controversial matters that constitutional freedoms
require the greatest clarification and protection. See,
e.g., NAACP v. Claiborne Hardware Co., 458 U.S. 886
(1982); NAACP v. Button, 371 U.S. 415 (1963).
Review by this Court is necessary because the Sixth
Circuit committed precedent-setting errors of
exceptional public importance and issued an opinion
that directly conflicts with this Court’s precedent and
the well-established precedent of other federal courts.
Sup. Ct. R. 10(c). Accordingly, there are two primary
reasons justifying review.
First, the City’s prior restraint on Petitioners’
speech at the City Council meeting, a public forum
which was convened in part to discuss whether the City
should permit the construction of a mosque pursuant to
the challenged Consent Judgment, operated as an
unlawful content- and viewpoint-based restriction in
violation of the First Amendment.
The Sixth Circuit’s First Amendment decision
conflicts with Matal v. Tam, 137 S. Ct. 1744, 1763
(2017), and with established precedent which holds
that when the government designates a particular
forum for speech, such as a city council meeting, speech
restrictions must be content-neutral. See Madison
Joint Sch. Dist. v. Wis. Emp’t Relations Comm’n, 429
U.S. 167, 176 (1976) (“[W]hen the board sits in public

19
meetings to conduct public business and hear the views
of citizens, it may not be required to discriminate
between speakers on the basis of . . . the content of
their speech.”). Accordingly, the panel was wrong on
the viewpoint issue, and it was wrong with regard to
the applicable standard.10 App. 14-22.
Second, it is well established that “[a] federal
consent decree or settlement agreement cannot be a
means for state officials to evade state law. . . .
Municipalities may not waive or consent to a violation
of their zoning laws, which are enacted for the benefit
of the public.” League of Residential Neighborhood
Advocates v. City of L.A., 498 F.3d 1052, 1058 (9th Cir.
2007) (declaring invalid a settlement agreement
approved by a federal district court that granted an
Orthodox Jewish congregation approval to operate a
synagogue in a residential-zoned area contrary to the
local zoning laws and stating, “[b]y placing its
imprimatur on the Settlement Agreement, the district
court effectively authorized the City to disregard its
local ordinances in the name of RLUIPA”). The
Consent Judgment does not comply with local and state
zoning laws, and it was not necessary to rectify the
10

The district court and Respondents agreed that content-based
restrictions were impermissible in this forum. App. at 17 (citing
standard in Jobe v. City of Catlettsburg, 409 F. 3d 261, 266 (6th
Cir. 2005)); Answer ¶ 38 [admitting that the City Council meeting
is a public forum and that the City “may apply restrictions to the
time, place, and manner of speech so long as those restrictions are
content-neutral, are narrowly tailored to serve a significant
government interest, and leave open ample alternative channels
of communications”] R.29, Pg. ID 1147). However, the district
court wrongly concluded that the restriction was content neutral.
See supra.

20
violation of federal law. It is, therefore, invalid,
contrary to the panel’s opinion. App. at 11-14.
Review is warranted and necessary.
I. THE CITY COUNCIL RULE PROHIBITING
PETITIONERS’ SPEECH VIOLATED THE
FIRST AMENDMENT.
The City Council held a meeting to discuss whether
the City should continue to defend the Planning
Commission’s decision by rejecting the proposed
Consent Judgment or whether it should extricate itself
from the controversial litigation by capitulating to
AICC’s demand that it be permitted to construct the
mosque via the proposed Consent Judgment.
As expected, many City residents, including most of
the Petitioners, had very strong opinions as to why
they did not want the City to capitulate and permit the
construction. As noted above, during his deposition,
Respondent Taylor described these views as “good faith
concerns.” (R.67-12, Pg. ID 1774).
Yet, during the City Council meeting, and prior to
anyone speaking on the subject of whether the City
should or should not permit the mosque construction
via the Consent Judgment, Respondent Taylor imposed
a speech restriction that prohibited Petitioners from
expressing their “good faith concerns” because the
speech was deemed to be an attack on Islam. The
panel incorrectly upheld this content- and viewpointbased restriction. App. at 9-14.
More specifically, Respondent Taylor warned the
speakers prior to the public comment period that he

21
would not permit “any comments about anybody’s
religion . . . . And any comments regarding other
religions or disagreements with religions will be called
out of order.” (R.67-12, Pg. ID 1776).
Respondent Taylor testified that he was enforcing
a City Council rule. (See R.67-12, Pg. ID 1776; id., Pg.
ID 1777 [“If somebody came up at any council meeting
and started to talk about somebody else’s religious
beliefs or attacking them for their religious beliefs, they
would be called out of order. I was just specifying it at
this meeting.”]).
As a matter of law, Respondent Taylor was
imposing an unlawful viewpoint-based restriction,11
and he was doing so through the enforcement of a
single rule that operated as a prior restraint on
Petitioners’ speech. To begin, the panel is wrong to
suggest that religion was not “relevant” to the
discussion (and to treat this as a separate “relevance
rule”). App. at 9-13). Per Respondent Taylor:
Q. And you were specifying it [i.e., the speech
restriction] at this meeting because the subject
of the consent judgment was the construction of
a mosque; correct?
A. I was specifying it at this meeting because I
anticipated that some speakers would want to
talk about religion.
Q. In the context of the construction of this
mosque on 15 Mile Road; correct?
11

Viewpoint discrimination is an egregious form of content
discrimination. Bible Believers v. Wayne Cnty., 805 F.3d 228, 248
(6th Cir. 2015) (en banc).

22
A. Yes, and the context of that agenda typically
was to approve the consent judgment.
Q. And the consent judgment was effectively the
approval of the construction of the mosque on 15
Mile Road?
***
THE WITNESS: The consent judgment speaks
for itself, obviously, but, yes, the subject matter
was a mosque.
BY MR. MUISE:
Q. And so a mosque is a religious place of
worship?
A. Yes, of course.
(R.67-12, Pg. ID 1777 [emphasis added]).
Further, the fact that this City Council rule was
viewpoint based is evidenced by the fact that
Respondent Taylor would not permit any speaker to
make a comment that he deemed critical of (i.e., an
“attack” on) Islam.12 Per Respondent Taylor:
Q. With regard to the public comment period at
the February 21, 2017, city council meeting, you
previously testified that private citizens who
were going to comment were not permitted to
attack another person or institution in their
comments; is that right?
A. That’s correct.
Q. So, for example, the private citizen would not
be permitted to oppose the construction of the

12

(See R.29, Pg. ID 1149-50 [admitting that the speaker was called
out of order because her comment “was disparaging to Muslims”]).

23
mosque based on the view that Islam is a
religion of violence. That would be considered
an attack on Islam?
A. Yeah, I would view that as an attack on an
institution, the institution of Islam, and also on
the AICC.
Q. Similarly, then, not to permit—wouldn’t
permit a private citizen to express opposition to
the mosque based on the speaker’s view that
AICC was associated with terrorism in some
way; correct?
A. I would not have tolerated that.
(R.67-12, Pg. ID 1786 [emphasis added]).
Under controlling law and contrary to the panel’s
opinion, the challenged speech restriction is not only an
unlawful content-based restriction, see Glendale
Assocs., Ltd. v. N.L.R.B., 347 F.3d 1145, 1155 (9th Cir.
2003) (“A rule is defined as a content-based restriction
on speech when the regulating party must examine the
speech to determine if it is acceptable.”), the very basis
for this restriction (i.e., Respondents did not want any
comments during the public hearing that might offend
anyone’s religion) demonstrates that it is also an
unlawful viewpoint-based restriction. This Court’s
decision in Matal v. Tam, 137 S. Ct. 1744, 1763 (2017),
is controlling and compels a summary reversal on this
issue. See id. at 1763 (“Giving offense is a viewpoint.”);
see also Am. Freedom Def. Initiative v. King Cnty., 904
F.3d 1126, 1131-32 (9th Cir. 2018) (holding that the
County’s refusal to display an ad on its transit
advertising space, a nonpublic forum, based on a claim
that the ad was demeaning and disparaging toward

24
Muslims was an unlawful viewpoint-based restriction
and expressly relying upon Matal); Wandering Dago,
Inc. v. Destito, 879 F.3d 20, 33 (2d Cir. 2018) (holding
that “Matal compels the conclusion that defendants
have unconstitutionally discriminated against WD’s
viewpoint by denying its Lunch Program application
because WD branded itself and its products with ethnic
slurs”).
The Sixth Circuit’s departure from this and other
precedent, see Police Dep’t of the City of Chi. v. Mosley,
408 U.S. 92, 96 (1972) (stating that “under the Equal
Protection Clause, not to mention the First
Amendment itself, government may not grant the use
of a forum to people whose views it finds acceptable,
but deny use to those wishing to express less favored or
more controversial views”); Madison Joint Sch. Dist.,
429 U.S. at 176 (citing Mosley), should be reversed.
II. THE CONSENT JUDGMENT IS INVALID
BECAUSE IT DISREGARDS ZONING LAWS
AND WAS NOT NECESSARY TO RECTIFY
THE VIOLATION OF FEDERAL LAW.
When this litigation commenced, the City’s
attorneys argued that the City Council need only
“consider” the zoning standards (i.e., the Council was
not required to make any record demonstrating
compliance with the standards), and thus it was
Petitioners’ burden to prove a negative (i.e., that the
Council did not simply “consider” the standards). (See
R.14, Pg. ID 520 [arguing that the “standards” need
only be “considered” by the Council]).

25
Following the close of discovery, the City’s
argument changed to the one it presented on appeal:
when “approving” a special approval land use via a
consent decree, the City Council is not required to
comply with any zoning standards. (Appellees’ Br. at
20 [“Since Council is only the approving authority, it is
not required to consider the § 25.02 standards or find
that a consent judgment complies with those standards
before approval . . . .”). This position was necessitated
by the fact that nothing in the Consent Judgment, the
City Council meeting, or the minutes of that meeting
sets forth facts demonstrating that the mosque
construction complies with the zoning regulations.
This untenable position forced the City’s Rule 30(b)(6)
witness to concede during his deposition that the City
Council could theoretically approve the construction of
a nuclear power plant in a residential district to resolve
litigation via a consent decree. (R.67-4, Pg. ID 1644).
The district court agreed with the City, and it did so
by concluding that the “Zoning Code is silent” as to
whether the City Council must apply the zoning
standards when it is “designated the ‘approving
authority’ only.” App. 39. The panel claimed that it
was not going to resolve this conflict regarding the
application of the Zoning Ordinance, App. 7, but it
nonetheless resolved the matter de facto in the City’s
favor by upholding the City Council’s approval of the
mosque construction, App. 7-9.
The panel’s opinion is wrong. Not only does the
Zoning Ordinance not support this position, the MZEA,
which trumps the Zoning Ordinance, see Whitman v.
Galien Twp., 288 Mich. App. 672, 687 (Mich. Ct. App.

26
2010) (“Because the zoning ordinance does not comply
with the MZEA, the zoning board’s decision to grant a
special-use permit did not comport with the law . . . .”),
expressly rejects it,13 and for good reason: zoning laws
“are enacted for the benefit of the public,” League of
Residential Neighborhood Advocates, 498 F.3d at 105556, not for the benefit of politicians or city lawyers who
want to avoid controversial litigation.
In the final analysis, there are serious and harmful
policy implications created by the panel’s opinion. If an
application for special zoning couldn’t get approval
through the Planning Commission, the party seeking
the special zoning could simply “sue and settle,” relying
on the fact that potentially costly and controversial
litigation would force the City Council to exercise this
super-zoning-authority the City claims it possesses.
That theoretical nuclear power plant could become a
reality. But the Zoning Ordinance and the MZEA do
not permit such an abuse of power. And only this
Court can remedy the error and halt this harmful
practice by granting review and reversing the Sixth
Circuit.
As noted above, the Planning Commission
unanimously disapproved the mosque construction
based on the factual record. And the Commission made
specific findings setting forth the basis for its decision
based on the mandatory zoning requirements. (R.67-5,
Pg. ID 1657; 67-10, Pg. ID 1758-59). The Consent
Judgment does not remedy these violations. The
13

Mich. Comp. Laws § 125.3502 (mandating “a statement of
findings and conclusions . . . which specifies the basis for the
decision” for all special land use approvals).

27
Consent Judgment only marginally reduced the height.
The approved height still far exceeds other structures
in the immediate areas as a matter of fact. The
Consent Judgment did not reduce the building size,
and this is particularly troubling in light of the
postage-stamp size of the parcel (4.3 acres). The
Consent Judgment did not consider ancillary uses of
the building, it provides parking for only 3,205 square
feet of the space, and it does not require any definitive
overflow parking plan—at best, it only requires a vague
“reasonable effort.” And the Consent judgment does
nothing to remedy the defect that the scale and height
of the proposed building on the site are not harmonious
with the character of existing buildings in the vicinity
of the relevant R-60 zoning district. The proposed site
is inappropriate for this large construction. (See R.675, Pg. ID 1657; R.67-10, Pg. ID 1758-59).
As noted, during his testimony, Respondent Taylor
confirmed that he “support[ed] the planning
commission’s decision in this case,” that “the planning
commission arrived at the right decision” and that this
decision was “based on legitimate planning and zoning
issues.” (R.67-12, Pg. ID 1781-82). The City’s
designated Rule 30(b)(6) witness confirmed, stating the
he “agree[d] with the planning commission’s
determination.” (R.67-4, Pg. ID 1650).
Nothing in the Consent Judgment, stated during
the City Council meeting, or drafted in the minutes of
that meeting demonstrates that the mosque
construction complies with the required zoning
standards. And the panel did not, because it could not,

28
identify such compliance with any specific facts.14
Indeed, by its own terms, the Consent Judgment
trumps local zoning regulations. (R.67-20, Pg. ID 1837
[“Except as modified by this Consent Judgment, AICC
shall comply with all City codes . . . .”], Pg. ID 1838 [“To
the extent that this Consent Judgment conflicts with
any City Ordinance . . . , the terms of this Consent
Judgment shall control.”],). The panel’s opinion is
wrong, and it establishes a dangerous precedent by
permitting a “sue and settle” policy to the detriment of
the general public.
In sum, the Consent Judgment is invalid, and the
law overwhelmingly affirms that a federal court has
the authority and the duty to declare invalid a federal
consent decree that violates state law and that is not
necessary to rectify the violation of federal law, as in
this case. See League of Residential Neighborhood
Advocates, 498 F.3d at 1058 (invalidating a consent
decree that violated local zoning laws); Perkins v. City
of Chi. Heights, 47 F.3d 212, 216 (7th Cir. 1995)
(stating that without “properly supported findings that
such a remedy is necessary to rectify a violation of
federal law,” the “parties can only agree to that which
they have the power to do outside of litigation”); St.
Charles Tower, Inc. v. Kurtz, 643 F.3d 264, 270 (8th
Cir. 2011) (invalidating a consent decree and stating,
14

The panel claims that “[i]t is abundantly clear that the City
Council did consider these and all other relevant criteria,” offering
generalizations about “noise, size and height of building, parking,
and traffic.” App. at 7-8. But the record is “abundantly clear” that
the mosque does not comply with the zoning requirements, even
when accepting the few minor and meaningless concessions made
in the Consent Judgment.

29
“State actors cannot enter into an agreement allowing
them to act outside their legal authority, even if that
agreement is styled as a ‘consent judgment’ and
approved by a court”); Kasper v. Bd. of Election
Comm’rs, 814 F.2d 332, 341-42 (7th Cir. 1987) (same);
Cleveland Cnty. Ass’n for Gov’t by the People v.
Cleveland Cnty. Bd. of Comm’rs, 142 F.3d 468, 477-79
(D.C. Cir. 1998) (same); Keith v. Volpe, 118 F.3d 1386,
1393 (9th Cir. 1997) (same).
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
ROBERT JOSEPH MUISE
Counsel of Record
American Freedom Law Center
P.O. Box 131098
Ann Arbor, Michigan 48113
(734) 635-3756
rmuise@americanfreedomlawcenter.org
DAVID YERUSHALMI
American Freedom Law Center
2020 Pennsylvania Avenue NW
Suite 189
Washington, D.C. 20006
(646) 262-0500
Counsel for Petitioners

